WAIVER

SUPREME COURT OF THE UNITED STATES

No. (21-558
Howard Jarvis Taxpayer Assoc. et al. The CA Secure Choice Retirement Prog.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Sharon L. O'Grady Dat. 2021 10.18 10453400700

Date: 10/13/21

(Type or print) Name |Sharon L. O'Grady

O mr. © Ms. O Mrs. O Miss
Firm California Department of Justice
Address 455 Golden Gate Avenue, Suite 11000
City & State |San Francisco, CA Zip |94102
Phone (415) 510-3834 Email sharon.ogrady@doj.ca.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

*Laura E. Dougherty, Petitioner's Counsel
ce: Jon Coupal, Petitioner's Counsel
Timothy A. Bittle, Petitioner's Counsel
